RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 20Alvin Christopher Penn,
Petitioner

v.
United States,

Respondent.
As required by Supreme Court Rule 33.1(h), I, J. Matthew Wright, certify
that the Petition for a Writ of Certiorari in the foregoing case contains 7,964 words,
excluding the parts of the document that are excluded by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 4, 2021.

/s/ J. Matthew Wright
J. MATTHEW WRIGHT*
FEDERAL PUBLIC
DEFENDER’S OFFICE
NORTHERN DISTRICT
OF TEXAS
500 South Taylor Street, Unit 110
Amarillo, TX 79101
(806) 324-2370
Matthew_Wright@fd.org

